        AUDIT REPORT

Audit of NRC’s Issuance of General Licenses

           OIG-12-A-14     June 28, 2012




All publicly available OIG reports are accessible through
                    NRC’s Web site at:
http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                   Audit of NRC’s Issuance of General Licenses


EXECUTIVE SUMMARY

   BACKGROUND

        The U.S. Nuclear Regulatory Commission’s (NRC) regulations provide a
        general license for the use of byproduct material contained in certain
        products. This general license allows persons to receive and use a device
        containing byproduct or source material (a general licensed device) if the
        device has been manufactured and initially distributed in accordance with
        a specific license issued by NRC or an Agreement State.

        A general licensed device (GLD) consists of radioactive material encased
        in a capsule within a shielded device. The design of a GLD is subject to a
        regulatory review to ensure that the device meets NRC or Agreement
        State regulatory requirements prior to approval for distribution. NRC
        asserts that the GLD is designed with inherent radiation safety features so
        that it can be used by persons with no radiation safety training or
        experience. A few of the more commonly used GLDs include fixed
        gauges, x-ray fluorescence analyzers, static elimination devices, and
        tritium exit signs.

        How NRC Regulates GLDs

        NRC’s Office of Federal and State Materials and Environmental
        Management Programs is primarily responsible for the regulation of GLDs.
        Specifically, the Licensing Branch within the office provides program
        oversight for the general license program. In addition to developing and
        implementing technical and policy guidance, the branch is responsible for
        the following:

                Sealed Source and Device Registry Review – A device must
                undergo this review and safety evaluation prior to distribution as a
                GLD. Satisfying the review ensures that the device meets NRC’s
                or an Agreement State’s regulatory requirements.

                General License Tracking System – This database facilitates the
                tracking and accountability of general licensees and GLDs. The
                database stores information about NRC’s current general licensees
                located in NRC’s jurisdiction.




                                        i
                                               Audit of NRC’s Issuance of General Licenses


            Registration – Certain general licensees (approximately 600) are
            required to register their devices with NRC annually. The
            registration requires licensees to provide NRC the location of the
            devices and specific information about the licensee.

OBJECTIVE

      The audit objective was to determine if NRC issues general licenses for
      only inherently safe nuclear materials.

RESULTS IN BRIEF

      General Licensed Devices Can Contain Dangerous Sources

      Although GLDs can contain dangerous radioactive sources, NRC
      considers GLDs to be inherently safe, allowing persons with no radiation
      training or experience to operate these devices. Existing regulations do
      not specify an activity threshold for byproduct material allowed in general
      licensed fixed gauges. When exposed to a dangerous source, a person
      can receive a radioactive dose that exceeds the regulatory limits for
      radiation exposure.

RECOMMENDATIONS

      This report makes four recommendations to improve the agency’s
      oversight of general licensed devices.

AGENCY COMMENTS

      An exit conference was held with the agency on June 7, 2012. At this
      meeting, agency management provided supplemental information that has
      been incorporated into this report as appropriate. As a result, agency
      management stated their general agreement with the findings and
      recommendations in this report and opted not to provide formal comments
      for inclusion in this report.




                                    ii
                                          Audit of NRC’s Issuance of General Licenses


ABBREVIATIONS AND ACRONYMS


       CFR     Code of Federal Regulations

       GLD     general licensed device

       IAEA    International Atomic Energy Agency

       mrem    millirem

       NMED    Nuclear Material Events Database

       NRC     Nuclear Regulatory Commission

       OIG     Office of the Inspector General




                               iii
                                                                  Audit of NRC’s Issuance of General Licenses


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i

        ABBREVIATIONS AND ACRONYMS ......................................... iii

        I.     BACKGROUND .................................................................. 1

        II.    OBJECTIVE ....................................................................... 6

        III.   FINDING ............................................................................. 6

                      GENERAL LICENSED DEVICES CAN CONTAIN
                      DANGEROUS SOURCES ................................................. 7

                      RECOMMENDATIONS …………………………………..…18

        IV.    AGENCY COMMENTS ..................................................... 20

        APPENDIX

               OBJECTIVE, SCOPE, AND METHODOLOGY................. 21




                                                  iv
                                                      Audit of NRC’s Issuance of General Licenses



I.    BACKGROUND

                The U.S. Nuclear Regulatory Commission’s (NRC) mission is to
                regulate the Nation's civilian use of byproduct, source, and
                special nuclear materials1 to ensure adequate protection of
                public health and safety, promote the common defense and
                security, and protect the environment. NRC's regulations
                provide a general license for the use of byproduct material
                contained in certain products. This general license allows
                persons to receive and use a device containing byproduct or
                source material (a general licensed device) if the device has
                been manufactured and initially distributed in accordance with a
                specific license issued by NRC or an Agreement State.2

                General Licensed Devices

                A general licensed device (GLD) consists of radioactive material
                encased in a capsule within a shielded device. The design of a
                GLD is subject to a regulatory review to ensure that the device
                meets NRC or Agreement State regulatory requirements prior to
                approval for distribution. NRC asserts that the GLD is designed
                with inherent radiation safety features so that it can be used by
                persons with no radiation safety training or experience. A few of
                the more commonly used GLDs include fixed gauges, x-ray
                fluorescence analyzers, static elimination devices, and tritium
                exit signs. As the safety of general licensed fixed gauges is the
                primary focus of this report, a brief explanation of the uses and
                design of fixed gauges follows.




1
 Byproduct material includes, but is not limited to, nuclear material (other than special
nuclear material) that is produced or made radioactive in a nuclear reactor, discrete sources
of radium-226, and accelerator produced radioactive material that is produced, extracted, or
converted after extraction for a commercial, medical, or research activity. Source material is
natural uranium or thorium or depleted uranium that is not suitable for use as reactor fuel.
Special nuclear material consists of uranium-233 or uranium-235, enriched uranium, or
plutonium.
2
 An Agreement State is a U.S. State that has signed an agreement with NRC authorizing the
State to regulate certain uses of radioactive materials within the State. NRC relinquishes to
such States portions of its regulatory authority to license and regulate byproduct materials,
source materials, and certain quantities of special nuclear materials.


                                               1
                                                    Audit of NRC’s Issuance of General Licenses



                Fixed Gauges

                Fixed gauges are typically used to monitor a production process
                and ensure quality control. There are many types of fixed
                gauges, including those that measure thickness, density, level,
                and volumetric flow. Americium-241, cesium-137, and cobalt-60
                are the radioactive sources commonly used in fixed gauges.
                When the shutter on a fixed gauge is opened, the radiation
                passes through the material and a detector, which is mounted
                opposite the source, measures the radiation that passes
                through the material. A readout, either on the gauge or on a
                connected computer terminal, captures the required information.
                The passage of radiation through the material does not cause
                any physical or chemical change, and the material itself does
                not become radioactive.

                How NRC Regulates GLDs

                NRC’s Office of Federal and State     Figure 1. Cutaway View
                Materials and Environmental           of Density Gauge
                Management Programs is
                primarily responsible for the
                regulation of GLDs.
                Specifically, the Licensing
                Branch within the office
                provides program oversight for
                the general license program.
                In addition to developing and
                implementing technical and
                                                  Source: Vega Controls UK Web site
                policy guidance, the branch is
                responsible for the following:

                        Sealed Source and Device Registry Review – A device
                        must undergo this review and safety evaluation prior to
                        distribution as a GLD.3 Satisfying the review ensures that
                        the device meets NRC’s or an Agreement State’s
                        regulatory requirements.


3
  The certificate issued upon completion of the Sealed Source and Device Registry Review
indicates whether the device is approved for distribution under a general license, under a
specific license, or under both specific and general licenses.

                                             2
                                                        Audit of NRC’s Issuance of General Licenses



                         General License Tracking System – This database
                         facilitates the tracking and accountability of general
                         licensees and GLDs. The database stores information
                         about NRC’s current general licensees located in NRC’s
                         jurisdiction, along with device information and vendor
                         information.

                         Registration – Certain general licensees (approximately
                         600) are required to register their devices with NRC
                         annually. The registration requires licensees to provide
                         NRC the location of the devices and specific information
                         about the licensee. General licensees required to
                         register are also required to submit an annual fee
                         (currently $400) to NRC. General licensees that possess
                         at least one device containing one of the following
                         isotopes at or above the activity shown are required to
                         register (see Table 1).

                 Table 1. Isotopes Subject to Registration
                  Isotope                                            Minimum activity in
                                                                     millicuries4
                  Americium-241                                                      1
                  Cesium-137                                                         10
                  Cobalt-60                                                          1
                  Curium-244                                                         1
                  Radium-226                                                         0.1
                  Strontium-90                                                       0.1
                  Plutonium-238                                                      1
                  Plutonium-239                                                      1
                  Californium-252                                                    1
                 Source: Title 10 Code of Federal Regulations (CFR) 31.5(c)(13)(i)

4
  Activity is the rate of disintegration or decay of radioactive material per unit of time. The
minimum activity for GLDs subject to annual registration is shown in millicuries. A curie is a
unit used to measure the intensity of radioactivity. It refers to the amount of ionizing radiation
released when an element spontaneously emits energy as a result of the radioactive decay
(or disintegration) of an unstable atom. A millicurie is one thousandth of a curie and a
microcurie is one millionth of a curie.




                                                3
                               Audit of NRC’s Issuance of General Licenses



General Licenses Versus Specific Licenses

NRC ensures public health and safety differently for general
licensed and specific licensed devices. For general licenses,
NRC asserts that safety concerns are generically addressed by
extensive regulatory review of the device design and the
practices of the device manufacturer so that, even in accident
scenarios, there is no unacceptable risk to public health and
safety. General license requirements and fees are substantially
less than for a specific license. Consequently, the general
license simplifies the licensing process so that a case-by-case
determination of the adequacy of the radiation training or
experience of each user is not necessary.

By contrast, NRC may issue a specific license to a named
person who has filed an application for a license to use a fixed
gauge that contains a sealed source or sealed sources. An
application for a specific license provides NRC an opportunity to
conduct a detailed review of
the radioactive materials          Figure 2. Fixed Gauges
program proposed by the            Attached to Pipes
applicant. NRC is able
to interact with the
applicant during the
licensing process prior
to making a regulatory
decision as to whether
to grant the license as
requested or with
modifications. The
following table highlights
the primary distinctions
between general
licenses and specific         Source: Canadian Nuclear Safety
licenses.                     Commission Web site




                         4
                                                     Audit of NRC’s Issuance of General Licenses




 Table 2. General License Versus Specific License Comparison
  Regulatory Area                    General License                      Specific License

  Application                        Not required                         Required

  Licensing                          By rule, no license document         License document
                                     issued                               issued

  Expiration                         No expiration                        Specific expiration date

  Inspections                        Not normally inspected               Routine inspections

  Worker Training                    Not required                         Required

  Radiation Protection Program       Not required                         Required


  Fees to NRC                        Annual Registration                  Annual license fees:
                                     (certain Part 31 devices only)       Small manufacturing
                                     $400                                 entities with fewer than
                                                                          35 employees $500,
                                                                          35-500 employees
                                                                          $2,300; Byproduct
                                                                          material uses ("All
                                                                          other" including fixed &
                                                                          portable gauges, gas
                                                                          chromatographs, and
                                                                          other analyzing and
                                                                          measuring equipment)
                                                                          $4,800

Source: Office of the Inspector General (OIG) analysis of NRC regulations




                                             5
                                          Audit of NRC’s Issuance of General Licenses



II.   OBJECTIVE

           The audit objective was to determine if NRC issues general
           licenses for only inherently safe nuclear materials. The report
           Appendix contains information on the audit scope and
           methodology.



III. FINDING

           Although GLDs can contain dangerous radioactive sources,
           NRC considers GLDs to be inherently safe, allowing persons
           with no radiation training or experience to operate these
           devices. Existing regulations do not specify an activity threshold
           for byproduct material allowed in general licensed fixed gauges.
           When exposed to a dangerous source, a person can receive a
           radioactive dose that exceeds the regulatory limits for radiation
           exposure.

           Safety Is NRC’s Number One Priority

           The aim of NRC’s safety goal strategies is to focus attention on
           safety matters and individual accountability of those engaged in
           regulated activities. During a public speech, NRC’s Chairman
           said that safety is always NRC’s number one priority. The
           agency’s commitment to safety is through its oversight of
           licensee performance through inspections, investigations,
           enforcement, and performance assessment activities.

           Inherently Safe

           An inherently safe device should amount to a low level of
           danger even when the device is not operating as designed.
           NRC’s experience with GLDs indicates that if users follow basic
           safety procedures, and the devices operate as designed,
           radiation exposures to users are generally low. As such, NRC
           does not require users to have radiation training or experience
           prior to operating a GLD because NRC considers the devices to
           be inherently safe.



                                    6
                                 Audit of NRC’s Issuance of General Licenses



General Licensed Devices Can Contain Dangerous Sources

NRC’s regulation of GLDs allows certain devices to contain
radioactive sources that, if not used properly, could be
dangerous.

IAEA Code of Conduct

In 2004, the International Atomic Energy Agency (IAEA) issued
the Code of Conduct on the Safety and Security of Radioactive
Sources, in part, to protect individuals, society, and the
environment from the harmful effects of possible accidents and
malicious acts involving radioactive sources. In 2005, the
United States made a commitment to fully support and endorse
the IAEA Code of Conduct. IAEA developed a categorization
system that provides a relative ranking and grouping of sources
and practices on which regulatory decisions can be based. The
categorization is based on a definition of a dangerous source.
Such a source could, if not under control, give rise to exposure
sufficient to cause severe deterministic effects (i.e., fatal or life
threatening) or a permanent injury. The IAEA Code of Conduct
identifies specific radioactive materials and categorizes them by
activity level.

The IAEA categories are:

Category 1: Extremely Dangerous. These sources could
cause permanent injury within a few minutes if handled. Doses
could be fatal to someone in close proximity to an unshielded
source for periods ranging from a few minutes to an hour.

Category 2: Very Dangerous. These sources could cause
permanent injury within minutes to hours if handled. Doses
could be fatal to someone in close proximity to an unshielded
source for periods ranging from hours to days.

Category 3: Dangerous. These sources could cause
permanent injury within hours if handled. Doses could possibly
(but unlikely) be fatal to someone in close proximity to an
unshielded source for periods ranging from days to weeks.



                          7
                                                     Audit of NRC’s Issuance of General Licenses



                Category 4: Unlikely to be Dangerous. These sources would
                not cause permanent injury, although delayed health effects are
                possible. Doses could possibly (but unlikely) cause temporary
                injury to someone in close proximity to an unshielded source for
                a period of many weeks.

                Category 5: Most Unlikely to be Dangerous. These sources
                would not cause permanent injury.

                Fixed Gauges Contain Dangerous Sources

                Licensees in NRC’s jurisdiction possess GLDs that contain
                dangerous sources as defined by IAEA. As of February 16,
                2012, OIG confirmed through a search of the General License
                Tracking System that 32 GLDs, containing single Category 3
                sources, exist in NRC jurisdiction. The devices are fixed
                gauges primarily in steel, paper, coal, oil, and chemical facilities.
                Currently, there are no Category 1 or 2 GLDs in NRC
                jurisdiction.5 Although there were some Category 2 GLDs
                several years ago, they have all been converted to specific
                licenses. The following table details the locations within NRC
                jurisdiction with licensees possessing GLDs containing
                Category 3 sources.

                Table 3. GLDs in NRC Jurisdiction
                State                    Number of GLDs with Category 3 Sources
                Montana                                           2
                Indiana                                          20
                Michigan                                          7
                West Virginia                                     2
                Wyoming                                           1
                Total                                            32
                Source: NRC’s General License Tracking System as of February 2012




5
  While NRC regulations do not specifically preclude the use of a Category 1 source in a
general licensed fixed gauge, the weight and size of the shielding required to reduce the
radiation levels outside such a device would make the device impractical.


                                              8
                                                     Audit of NRC’s Issuance of General Licenses



                Agreement State Regulation of GLDs

                Although Agreement States regulate more than 85 percent of
                the material licenses in the United States, only a small
                percentage of GLDs in Agreement States contain IAEA defined
                dangerous sources. OIG interviewed a representative from
                each of the 37 Agreement States and found that some States
                do not issue general licenses and only issue specific licenses
                for devices with Category 1, 2, or 3 sources. Several other
                Agreement States are considering transferring all GLDs with
                Category 1, 2, or 3 sources to specific licenses. OIG also
                learned that some Agreement States routinely inspect their
                general licensees. Only 7 of the 37 Agreement States6 have
                licensees with GLDs containing Category 3 sources in their
                jurisdiction. In contrast, 5 of the 13 States in NRC jurisdiction
                have licensees with GLDs containing Category 3 sources. The
                following table details the Agreement States with licensees
                possessing GLDs containing Category 3 sources.

                Table 4. GLDs in Agreement State Jurisdiction7
                  State                  Number of GLDs with Category 3 Sources
                 California                                       2
                 Illinois                                         4
                 New Jersey                                       1
                 New Mexico                                       4
                 Ohio                                             11
                 Oklahoma                                         6
                 Texas                                            2
                 Total                                            30
                Source: OIG




6
 Due to their tracking methods, two additional States were unable to readily provide the
number, if any, of Category 1, 2, or 3 sources in GLDs in their jurisdictional areas.
7
 In addition to the GLDs with Category 3 sources, a licensee in California is in possession of
a GLD with a Category 2 source.


                                              9
                                                      Audit of NRC’s Issuance of General Licenses



                Fixed Gauge Regulation

                NRC regulations8 for fixed gauges require that the applicant (the
                manufacturer requesting to produce a GLD) submit sufficient
                information relating to the design, manufacture, prototype
                testing, quality control, labels, proposed uses, installation,
                servicing, leak testing, operating and safety instructions, and
                potential hazards of the device to provide reasonable assurance
                that the following design criteria are met:

                         A. The device is designed and built to be used safely by
                            someone without training in radiological protection.

                         B. Under ordinary conditions of handling, storage, and
                            use of the device, the byproduct material contained in
                            the device will not be released or inadvertently
                            removed from the device, and it is unlikely that any
                            person will receive an annual dose greater than
                            500 millirem (mrem)9 to the whole body.

                         C. Under accident conditions (such as fire and
                            explosion) associated with handling, storage and use
                            of the device, it is unlikely that any person would
                            receive an external or internal radiation dose greater
                            than 15,000 mrem to the whole body.

                These device safety regulations point to an apparent
                inconsistency in allowable exposures for GLD users. The
                following table compares dose limits for members of the public,
                GLD users, and radiation workers.




8
  10 CFR 32.51, Byproduct material contained in devices for use under 10 CFR 31.5
requirements for license to manufacture or initially transfer.
9
  A rem is a unit used to measure the amount of energy (from any type of ionizing radiation)
that is deposited in human tissue, along with the medical effects of the given type of radiation.
One millirem is one thousandth of a rem.


                                              10
                                  Audit of NRC’s Issuance of General Licenses



Table 5. Comparison of Dose Limits or Maximum
         Exposures for Members of the Public, GLD Users,
         and Radiation Workers
  Regulation For                   Annual Dose Limit            NRC Regulation
                                   (Whole Body) or
                                   Maximum Exposure


   Public                          100 mrem                    10 CFR 20.1301(a)


  Untrained individuals using a    500 mrem                    10 CFR 32.51(a)(2)(ii)
  GLD under ordinary conditions
  (members of the public)


  Untrained individuals using a    15,000 mrem                 10 CFR 32.51(a)(2)(iii)
  GLD under accident conditions
  (members of the public)


  Radiation worker                 5,000 mrem                  10 CFR 20.1201(a)
  (occupational)


Source: OIG analysis of NRC regulations


The discrepancy between dose limits for the public and those
for untrained individuals using GLDs occurred when NRC’s
dose criteria for the safety of GLDs were not updated to reflect
guidelines published by the International Commission on
Radiological Protection. Although NRC revised 10 CFR 20
(Standards for Protection Against Radiation) in 1991, the
agency did not also update 10 CFR 32 (Specific Domestic
Licenses to Manufacture or Transfer Certain Items Containing
Byproduct Material) to match. Therefore, manufacturers are
currently allowed to design gauges that could expose general
licensees (members of the public), using their devices under
ordinary conditions of handling, storage, and use, to radiation
doses up to 500 mrem per year (whole body) with no training in
radiological protection. If a specific licensee’s workers are
expected to exceed 100 mrem (whole body) in a year, they are
required under 10 CFR 19.12, Instructions to Workers, to
receive training in radiological protection. However, because


                            11
                                                  Audit of NRC’s Issuance of General Licenses



               general licensees under 10 CFR 31.5, Certain detecting,
               measuring, gauging, or controlling devices and certain devices
               for producing light or an ionized atmosphere, are exempt from
               Parts 19 and 20, they are not required to receive this training or
               wear radiation exposure monitoring apparatus under a radiation
               protection program. NRC considers GLD users to be members
               of the public.

               Shutters on Fixed Gauges Fail

               The shutter on a fixed gauge is a safety feature designed to
               eliminate or significantly reduce the radiation levels at the
               opening of a fixed gauge when the device is not in use and the
               shutter is in the closed position. Fixed gauges routinely operate
               in a continuous mode with the shutter open; this increases the
               chances of corrosion or the buildup of debris to affect the ability
               of the shutter to close. Shutter failures are not uncommon.
               NRC tracks events through its Nuclear Material Events
               Database (NMED)10 to monitor nuclear material trends across
               the country, and to identify issues that require followup. For
               example, recent NMED reports for fiscal year 2011
               (October 2010 through September 2011) identified 50 events
               involving stuck shutters, failures of shutter mechanisms, and
               related shutter problems in fixed gauges. Additionally,
               Agreement State representatives confirmed that stuck shutters
               on fixed gauges is an ongoing problem. The inability to close
               the shutter, due to the presence of corrosion or foreign
               materials, breakage of the closure mechanism, or some other
               cause, is considered by NRC to be a failure of equipment to
               operate as designed.

               No Threshold Limiting Byproduct Material Activity in Fixed
               Gauges

               NRC regulations do not specify a threshold limiting the activity
               of byproduct material allowed in general licensed fixed gauges.
               However, NRC regulations do specify limiting thresholds for
               certain devices and equipment that are also general licensed
               (see Table 6).
10
   NMED contains records of events involving nuclear material reported to the NRC by NRC
licensees, Agreement States, and non-licensees.

                                           12
                                                    Audit of NRC’s Issuance of General Licenses



                Table 6. Limiting Thresholds by Device Type
                  Type of                    Limiting Threshold                            NRC
                  Device or                                                                Regulation
                  Equipment


                  Static elimination         Not more than 500                             10 CFR 31.3
                  device                     microcuries of polonium-210


                  Ion generating tube        Not more than 500 microcuries of              10 CFR 31.3
                                             polonium-210 or not more than 50
                                             millicuries of hydrogen-3 (tritium)


                  Luminous safety            Not more than 10 curies of tritium or         10 CFR 31.7
                  devices for use in         300 millicuries of promethium-147
                  aircraft


                  Ice detection devices      Not more than 50 microcuries of               10 CFR 31.10
                                             strontium-90




                Source: 10 CFR 31


                Limiting thresholds also exist for certain calibration or reference
                sources, in vitro clinical or laboratory tests, and certain self-
                luminous products containing radium-226.

                Commission Involvement

                NRC’s Commission has frequently considered issues related to
                NRC's general licensing program. Most recently, in 2010 NRC
                staff presented a final rule to the Commission that would
                establish a threshold limiting the activity of byproduct material
                allowed in general licensed devices.11 The Commission
                disapproved publication of the final rule, citing various concerns
                such as an undue economic burden on the affected entities and
                the adequacy of current requirements. During interviews with

11                                                                                   th
  The rule was to limit the quantity of byproduct material in GLDs to not exceed 1/10 of
IAEA Category 3 threshold values.


                                             13
                                                  Audit of NRC’s Issuance of General Licenses



               OIG, several Commission members stated that they had not
               been presented with safety concerns regarding the GLD
               rulemaking, only security issues related to the aggregation of
               sources.

               Potential for Radiation Exposure Exceeding Regulatory
               Limits

               A person exposed to
                                                  Figure 3. Fixed Gauge To
               radiation from an
                                                  Measure Paper Density
               unshielded fixed gauge
               can receive a dose that
               exceeds NRC’s regulatory
               limits. Exposure to
               radiation can occur to
               non-radiation workers
               during routine operations
               or in accident conditions.
               Furthermore, members of
               the public who encounter
               fixed gauges after they
               have been lost, stolen, or
               improperly disposed can                Source: Thermo Scientific Web site
               also be exposed.

               Device Failures and Incidents

               Devices do not always operate as designed. Because of this,
               NRC recently issued Information Notices12 to alert fixed gauge
               licensees about the potential for the failure of shutter closure
               mechanisms due to fixed gauges operating in harsh working
               environments. One Information Notice states that “the concern
               with shutters that are stuck in the open position is that when the
               process or line is stopped workers performing maintenance or
               other work in the area could receive exposures.” The
               Information Notice also states that “for workers considered non-
               radiation workers [members of the public], under certain
12
  NRC Information Notice 2011-09, Fixed Gauge Shutter Failures Due to Operating in Harsh
Working Environments, dated May 18, 2011, and NRC Information Notice 2009-18,
Performance of Required Shutter Checks and Reporting of Gauge Shutter Failures, dated
September 18, 2009.


                                          14
                                                      Audit of NRC’s Issuance of General Licenses



                circumstances it would not take long to exceed the applicable
                regulatory limits for radiation exposure.” Several examples of
                safety related incidents occurring with fixed gauges are noted
                below. The incidents include both device failures and human
                errors involving general licensed and specific licensed devices.

                Device Failures

                         In 2011, the shutter on a fixed gauge containing 8 curies
                         of cesium-137 (IAEA Category 3) failed, exposing a total
                         of 10 workers (members of the public) to radiation.
                         During the weekend, the workers locked out13 two
                         gauges while performing maintenance on equipment.
                         The following Monday morning it was discovered that the
                         shutter on one gauge had failed, leaving the source
                         unshielded. Of the 10 workers exposed in the event,
                         officials believe that 4 received a dose in excess of 1 rem
                         each while others received lesser doses. The gauge in
                         this event is the same model as two GLDs in NRC
                         jurisdiction containing Category 3 sources.

                         In 2012, the shutter on a fixed gauge containing 5 curies
                         of cesium-137 (IAEA Category 3) became stuck in the
                         open position because of rust buildup from high humidity
                         in the facility. Although the device manufacturer
                         recommended a cover to protect the device in such
                         conditions, the cover had not been available at the time
                         of installation. The gauge in this event is the same model
                         as one GLD in NRC jurisdiction containing a Category 3
                         source.

                Human Error

                Additionally, GLD users may fail to observe procedures or may
                be unaware that specific procedures even exist. Also, because
                GLD users are non-radiation workers (members of the public),
                they may not realize the dangers associated with radioactive
                materials. Devices may be abandoned when a property is sold

13
  Typical lock-out procedures include locking the shutter into the “off” position and tagging
the shutter control mechanism to indicate the gauge is locked out.


                                              15
                                                  Audit of NRC’s Issuance of General Licenses



               or may be improperly disposed. During a 10-year period across
               the United States, 42 Category 2 sources and 27 Category 3
               sources were lost.14

                       In 2008, non-radiation workers were exposed to radiation
                       from two installed gauges, one containing 5 curies of
                       cesium-137 (IAEA Category 3), over 3 days. Of the four
                       exposed contract workers (reported by the licensee as
                       members of the public), two received doses greater than
                       the regulatory limit of 100 mrem per year. Failure of staff
                       to follow proper lock-out procedures, which would have
                       established safe boundaries for the contractors, was
                       identified as the cause for the exposure. The gauge in
                       this event is the same model as one GLD in NRC
                       jurisdiction containing a Category 3 source.

                       In 2010, four general licensed fixed gauges containing
                       cesium-137 were located at a facility that had changed
                       hands multiple times. The current owner was unaware of
                       the presence of the gauges or that the company
                       possessed radiological material. One of the four gauges
                       was found to have a shutter stuck open. The gauge in
                       this event is the same model as eight GLDs in NRC
                       jurisdiction containing Category 3 sources.

                       In 2010, a general licensed fixed gauge containing
                       cesium-137 was discovered in a load of scrap metal.
                       The licensee had properly transferred three of four
                       general licensed gauges in the 1990s, but a fourth gauge
                       was reported as “whereabouts unknown” on a 2001
                       registration questionnaire. After being discovered in the
                       scrap metal shipment, the fourth device was disposed of
                       properly.




14
  The 10-year period is for the timeframe 2002 through 2011. Two Category 2 and three
Category 3 sources have yet to be recovered.

                                           16
                                                     Audit of NRC’s Issuance of General Licenses



                Dose Can Exceed NRC’s Regulatory Limits

                When a fixed gauge containing
                                                     Figure 4. Fixed Density Gauge
                a dangerous source fails,
                exceeding the applicable
                regulatory limits for radiation
                exposure can occur in a
                relatively short period of time.
                A fixed gauge is continually
                emitting an invisible beam of
                radiation when its shutter is
                stuck in the open position.
                GLDs are typically positioned
                so it is difficult for workers
                (members of the public) to be in
                the beam of radiation.
                However, workers at a facility
                where fixed gauges are in use must Source: Vega Australia Web site
                perform periodic maintenance on
                the facility’s other equipment. When this occurs, workers are
                required to follow typical lock-out procedures prior to performing
                the maintenance. If a gauge shutter is stuck open, depending
                on the workers’ positions, they may be unknowingly exposed to
                radiation.

                Although typically shielded, radioactive sources used in fixed
                gauges can be dangerous if the shielding fails or the source
                becomes exposed. A radioactive source commonly used in
                fixed gauges is cesium-137. If a person was 1 foot away and
                exposed to the radiation from an 8 curie cesium-137 source,
                they would be subjected to a dose rate of around 25 rem per
                hour. Moving to 1 inch away from the source increases the
                dose rate to more than 3,500 rem per hour. Therefore, a person
                could receive a lethal dose15 from exposure to an 8 curie
                cesium-137 source.




15
  The dose of radiation expected to cause death to 50 percent of an exposed population
within 30 days. Typically, a lethal dose is in the range from 400 to 450 rem received over a
very short period.


                                              17
                               Audit of NRC’s Issuance of General Licenses



Reporting Reliability

While licensees report some events, it is not known how many
members of the public may have been harmed in some way from
GLDs. Although general licensees are required to report
incidents that occur involving their GLDs, they may not know
when such incidents occur or be aware of applicable reporting
requirements. The general licensees may not know of incidents
because the users do not typically have monitoring devices to
alert them of danger or track the amount of radiation they
receive. During an interview with OIG, a Commissioner stated
that there is a lack of data on exposures to support effective
decisionmaking on the issue, precisely because general
licensees and their employees are not required to wear
dosimetry or conduct surveys. An Agreement State investigation
in 2008 found that many events involving fixed gauges had
occurred, but were not reported as required. Therefore, it is
reasonable to conclude that general licensees may be
unknowingly exposed to harmful amounts of radiation and NRC
is unaware of the actual number of overexposures that occur.


Recommendations

OIG recommends that the Executive Director for Operations:

   1. Contact current general licensees with general licensed
      devices containing IAEA Code of Conduct Category 1, 2,
      or 3 sources, within 180 days, to encourage the general
      licensee to transfer the device(s) to a specific license(s).

   2. Visit all general licensees currently in possession of
      general licensed devices containing IAEA Category 1, 2,
      or 3 sources within 2 years. Focus such visits on:

              Reviewing records of leak testing and proper
              operations of open-close mechanisms and
              indicators.




                        18
                           Audit of NRC’s Issuance of General Licenses




          Device use, installations, maintenance and repair
          to determine that the devices are being used
          within authorized parameters.

3. Monitor agency records for 2 years to identify new
   general licensees entering the marketplace and visit
   those in possession of IAEA Category 1, 2, or 3 general
   licensed devices to ensure that devices are properly
   installed and that general licensees have adequate
   understanding of relevant regulations and their
   responsibilities.

4. Analyze information retrieved from recommendations 1,
   2, and 3 and take additional regulatory action, if needed,
   within 6 months after completion of data collection.
.




                     19
                                      Audit of NRC’s Issuance of General Licenses



IV.   AGENCY COMMENTS

         An exit conference was held with the agency on June 7, 2012.
         At this meeting, agency management provided supplemental
         information that has been incorporated into this report as
         appropriate. As a result, agency management stated their
         general agreement with the findings and recommendations in
         this report and opted not to provide formal comments for
         inclusion in this report.




                                20
                                      Audit of NRC’s Issuance of General Licenses



                                                                      Appendix


OBJECTIVE, SCOPE, AND METHODOLOGY

        Objective

        The audit objective was to determine if NRC issues general
        licenses for only inherently safe nuclear materials.

        Scope

        This audit focused on determining if GLDs can contain
        dangerous radioactive sources. This report focused primarily on
        the safety of fixed gauges. We conducted this performance
        audit at NRC headquarters (Rockville, Maryland) from February
        2012 through April 2012. Internal controls related to the audit
        objective were reviewed and analyzed. Throughout the audit,
        auditors were aware of the possibility or existence of fraud,
        waste, or misuse in the program.

        Methodology

        The audit team reviewed relevant criteria, including the IAEA
        Code of Conduct on the Safety and Security of Radioactive
        Sources; 10 CFR Part 31, General Domestic Licenses for
        Byproduct Material; and 10 CFR Part 32, Specific Domestic
        Licenses to Manufacture or Transfer Certain Items Containing
        Byproduct Material. The team reviewed NRC Information
        Notices, Commission Papers, and Staff Requirements
        Memoranda.

        The audit team reviewed NMED to identify events associated
        with fixed gauges. The team reviewed the General License
        Tracking System to identify the number of active GLDs that
        contain IAEA Code of Conduct Category 1, 2, and 3 sources.

        At NRC headquarters, in Rockville, Maryland, auditors
        interviewed Office of Federal and State Materials and
        Environmental Management Programs staff and management to
        gain an understanding of their roles and responsibilities related
        to the issuance of general licenses. Auditors also interviewed

                                21
                              Audit of NRC’s Issuance of General Licenses



the NRC Chairman and each NRC Commissioner to gain their
perspectives on the licensing of GLDs. Auditors conducted
telephone interviews with representatives from each of the 37
Agreement States to determine if the Agreement States issue
general licenses for devices containing Category 1, 2, or 3
sources.

We conducted this performance audit in accordance with
generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable
basis for our finding and conclusions based on our audit
objective.

The audit work was conducted by Sherri Miotla, Team Leader;
Robert Woodward, Audit Manager; Kevin Nietmann, Senior
Technical Advisor; Mitzi Lorette, Senior Auditor; and Amy
Hardin, Auditor.




                        22
